U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                     Office of the Secretary

            Department of Commerce Has Made
             Significant Progress, but Additional
         Opportunities Exist to Improve Reporting
              and Utility of Performance Results

                                        Final Audit Report
                         No. FSD-17444-0001/March 2006




                            PUBLIC
                            RELEASE



            Office of Audits, Financial Statements and
                               Accountability Division
                                                   UNITED STATES DEPARTMENT OF COMMERCE
                                                   The Inspector General
                                                   Washington, D.C. 20230




                                                                       MAR 3 7 2006

MEMORANDUM FOR:                Otto J. Wolff
                               Chief Financial Officer and
                                Assistant Secretar

FROM:                          Johnnie E. F

SUBJECT:                                                                        progrM
                                                             Exist to Improve the
                                                                       Results


This is our final report on the Department's efforts to report accurate, clear, and reliable
performance information about its programs and activities. Our audit found that the
Department and its bureaus have taken significant steps to address previously noted
deficiencies in reporting performance results. More specifically, we were pleased to find
that performance measures previously identified as being problematic have been
discontinued, reworded, or supplemented with additional explanatory language. Equally
important, management controls have been strengthened. Departmental officials also
have shown that they regard reporting performance information as highly important, as
most clearly evidenced by the structured quarterly meetings now held with bureaus to
discuss and review performance measures and results.

While we feel that significant progress has been made in this area, we cannot
overemphasize that continued management attention is imperative, particularly as the
Department moves toward more reporting of outcome-oriented performance. In this
report, we note corrective actions taken to address previously identified deficiencies in
data utility and integrity and provide examples where appropriate. We also note
opportunities to enhance the utility and integrity of performance data.

In responding to the draft report, the Department strongly concurred with all three
recommendations and provided additional corrective actions taken and planned. The
complete Department response is attached to the report as Appendix D.

Please provide your audit action plan addressing the recommendations for our
concurrence within 60 days of the date of this memorandum in accordance with
Department Administrative Order (DAO) 213-5. The plan should be in the format of
Exhibit 7 of the DAO. Should you have any questions regarding the preparation of the
audit action plan, please call me at (202) 482-466 1 or Thomas McCaughey, Director,
Financial Statements and Accountability Division at (202) 482-0025.

Attachment
                                   TABLE OF CONTENTS

EXECUTIVE SUMMARY. ....................................................................

INTRODUCTION.................................................................................

OBJECTIVES, SCOPE, AND METHODOLOGY                         ........................................
FINDINGS AND RECOMMENDATIONS ................................................

I. Data Utility of Reported Performance Information Has Improved,
   but Opportunities Remain for Further Improvement .......................................

       A. Positive Steps Taken Towards Enhancing the Utility
          of Reported Performance Data ...................................................

       B. Additional Opportunities to Improve the Utility of Performance
          Data Exist ...........................................................................

11. Progress Also Has Been Made in Strengthening the Integrity of
    Performance Data, but Chances for More Improvement Remain                 ....................
       A. Positive Steps Taken Toward Improving Data Integrity ......................

       B. Opportunities to Improve the Integnty of Performance
          Data Remain ......................................................................

RECOMMENDATIONS               .....................................................................
Appendix A.

Appendix B.

Appendix C.

Appendix D.
 U.S. Department of Commerce                                   Final Report No. FSD-17444-0001
 Ofice of Inspector General                                                        March 2006

                                EXECUTIVE SUMMARY

In 1993, Congress passed the Government Performance and Results Act (GPRA) to
improve the effectiveness, efficiency, and accountability of federal programs. The act
requires agencies to set performance goals and annually assess their success at achieving
them. GPRA is the centerpiece of a statutory framework that Congress put in place
during the 1990s to achieve greater governmental accountability. When it passed the
legislation, Congress emphasized that the usefulness of agencies' performance data
depends on the reliability and validity of that data.

GPRA requires agencies to develop strategic plans that describe missions, establish
results-oriented goals, and articulate strategies for achieving goals. The act also requires
that agencies during each fiscal year prepare both annual performance plans that
articulate goals for the upcoming year and program performance reports that measure
goal achievement. FY 1999 was the first year that the Department of Commerce set
performance targets and measured actual results against them.

Recognizing the inherent difficulty of successful implementation in a Department as
diverse as Commerce, the Office of Inspector General has been concerned with the
Department's efforts to capture and report reliable performance data since Commerce
first began implementing GPRA in 1997. Since then, OIG has provided implementation
advice and assistance, made presentations to departmental officials on ensuring the
reliability of performance-related information, provided informal comments to the
Department on various GPRA-related documents, and audited performance measurement
and reporting at several of the largest bureaus within the Department. OIG first identified
GPRA implementation as a top management challenge in March 1999, and it has
remained on the list since.

From September 2000 to September 2004, we issued eight separate audit reports covering
six bureaus' efforts to report accurate and reliable performance information. The bureaus
covered by the audits include the:
        Bureau of Industry and Security (BIS)
        U.S. Census Bureau
        National Telecommunications and Information Administration (NTIA)
        National Institute of Standards and Technology (NIST)
        U.S. Patent and Trademark Office (USPTO)
        National Oceanic and Atmospheric Administration (NOAA)

Together these bureaus represented more than 80% of the Department's FY 2004 net cost
of operations as reported in the Department of Commerce's FY 2004 Pei$ormance and
Accountability Report. We reviewed 45 performance measures during these audits. Our
audits repeatedly found (I) unclear measures (measures that did not establish clear links
between the activity being measured and the agency's actions or were stated in terms that
did not appropriately represent performance results) and (2) inadequate disclosures
(language accompanying performance data was insufficient to place performance results
in an appropriate context). Also, we repeatedly found deficiencies in management
controls (inadequate procedures to verify performance information and ensure that it can
    U.S. Department of Commerce                                   Final Report No. FSD-17444-0001
    Ofice of Inspector General                                                        March 2006

    be relied upon. The following table provides a breakdown by bureau of the most
    common findings from the eight audits between September 2000 and September 2004,
    inspections of performance data at five ITA offices, and a recently completed audit of
    performance measures at MBDA:

    Table 1:
    Common Issues from OIG Reviews

                                                                        OBLEMS WITH
                                                                        TA INTEGRITY




The table above shows the pervasive nature of the issues we have identified in our
reviews. For example, in our audits of performance measures at six bureaus (BIS,
CENSUS, NIST, NOAA, NTIA, and USPTO) from September 2000 to September 2004,
we identified problems with data utility (26 of the 45 measures (58%) were unclear and
38 of the 45 measures (84%) had inadequate disclosures). We also identified concerns
with data integrity (management control deficiencies were noted for 38 of the 45 or
(84%) of the performance measures). See Appendix A for more detail.

The identification of problems with bureau performance measures has not been limited to
these eight earlier audits involving six bureaus. Our Office of Inspections and Program
Evaluations (OIPE) identified similar concerns with certain ITA performance data during
five International Trade Administration (ITA) inspections. See Appendix B for more

1
 Five OIPE Inspections conducted between March 2003 and September 2004 identified insufficient
supporting evidence for export success measures.
  Minority Business Administration: Value of MBDA Performance Measures is Undermined by
Inappropriate Combining of Program Results and Unreliable Performance Data from MBOC Program.
Final Audit Report No. FSD-17252-5-0001ISeptember  2005.
U.S. Department of Commerce                                   Final Report No. FSD-17444-0001
Ofice of Inspector General                                                        March 2006

detail. The same types of issues were also found in the audit of performance
measurement and reporting at the Minority Business Development Agency (MBDA),
completed in September 2005. See Appendix C for more detail. In total, our reviews of
performance data for 50 performance measures identified 29 unclear measures, 41
measures laclung inadequate disclosures, and 43 measures with deficiencies in
management controls.

Both GPRA and the Reports Consolidation Act of 2000 emphasize the reliability of
performance information. We believe the Department should continue to strengthen the
utility and integrity of reported performance data. Accordingly, this office initiated this
audit to summarize the results of audit reports and other OIG observations and assess the
status of the Department's efforts to better report useful and reliable performance results.
As the audit report covering MBDA performance measurement and reporting was not
issued in final until September 2005, we have not assessed their efforts to implement
recommendations nor verified reported actions. This report summarizes our prior audit
coverage and highlights the identified problems with the Department's measurement and
reporting, what corrective actions have been taken, and additional opportunities to
strengthen the collection and reporting of the Department's performance results.

The objectives of this audit were to (I) assess Department and bureau efforts to address
identified deficiencies, (2) strengthen performance measurement and reporting, and (3)
identify whether additional actions are needed to ensure that reported performance results
are reliable and meaningful. We limited our review to the performance measures of the
six bureaus we audited and ITA performance measurement data reviewed by our Office
of Inspections and Program Evaluations (OIPE).

We were pleased to find that the Department and its bureaus have taken actions to
improve both the utility and integrity of the performance information reported to the
public. For example:

       Bureaus have eliminated or reworded performance measures that either (1) did
       not demonstrate a clear link between the activity being measured and the agency's
       actions or (2) clearly demonstrate what was being measured. For example, of the
       26 performance measures identified as unclear during our eight earlier audits, 9 or
       35% have been discontinued and 10 or 38% have been revised or reworded.

       Explanations of performance measures and results have been strengthened in
       Performance and Accountability Reports and Annual Performance Plans
       submitted by the Department to satisfy GPRA requirements. For example, details
       of the composition of results have been provided to place performance results in
       the proper context.

       As with explanations of performance results, discussions of limitations have been
       enhanced. For example, it was noted in GPRA required documents if
       performance results represented an average number andlor it was limited to
       certain geographical areas.
U.S. Department of Commerce                                Final Report No. FSD-17444-0001
Ofice of Inspector General                                                     March 2006

       In GPRA documents, improvements have been made in the description of efforts
       to ensure the verification of performance measures. For example, bureaus have
       clarified the methods that are used to verify performance data in Annual
       Perj-omance Plans.

       Also, efforts were taken by bureaus to improve its management controls to better
       ensure the reliability of performance data to the public. This included the
       implementation and documentation of verification procedures and establishing
       requirements for the maintaining of supporting documentation.

In addition to the aforementioned actions, the Department's more increasingly rigorous
quarterly review of performance information with bureau management and the increased
oversight of certain performance measures has afforded Commerce with a more reliable
process to improve the quality of the performance data it collects and reports. More
specifically, in January 2005, the Department of Commerce's Office of Budget instituted
quarterly performance reviews between bureau heads and the Deputy Secretary to discuss
bureau performance and targets. Subsequently, in the Spring of 2005, the Department's
Office of Budget began performing surveys of performance measures with the stated
objective of assessing the validation and verification process.

We are encouraged by the actions described above and have determined that Commerce
and its bureaus have collectively taken sufficient steps to warrant the removal of the
implementation of GPRA from OIG's list of top management challenges facing the
Department.

Removal of this issue from our list of top management challenges does not mean that all
is well or that we believe no further management attention to the matter is warranted.
Rather, while acknowledging significant progress in this area, continued senior
management involvement with performance measurement and reporting is imperative,
particularly as the Department continues to move to reporting more outcome-oriented
performance. And finally, additional opportunities remain for the Department and its
bureaus to enhance the quality of its performance information. Consequently, we include
several suggestions on page 15 of the report. We will continue to monitor the
Department's efforts in this area.
U.S. Department of Commerce                                                   Final Report No. FSD-17444-0001
Ofice of Inspector General                                                                        March 2006

                                          INTRODUCTION

Congress passed the Government Performance and Results Act (GPRA) of 1993 because
of concerns that government focused more heavily on program activities and processes
than results. GPRA is the centerpiece of a statutory framework that Congress put in place
during the 1990s to require greater management accountability for results. GPRA seeks
to improve the effectiveness, efficiency, and accountability of federal programs by
requiring agencies to set performance goals and to annually assess their success at
achieving them.

GPRA requires that agencies develop three different reports: a strategic plan, an annual
performance plan and an annual program performance report.

See Figure 1 for a description of the requirements for each report.
             Figure 1
             GPRA              Description of GPRA Reporting Requirements
             Reports
                            Describes agency missions, establishes result-oriented goals, and
             Strategic      identifies strategies to achieve goals. Agencies were required to
               Plan         develop their first strategic plan in fiscal year 1997, and are required
                            to update the plans every 3 years afterwards.


             Annual    Articulate goals for the upcoming fiscal year that align with long-term
           Performance strategic goals. Agencies developed their first annual performance
               Plan    plan for fiscal year 1999 and are required thereafter to issue plans
                       annually to correspond with budget submissions to Congress.


             Annual    Measures performance in achievement of goals in the annual
            Program    performance plan. Agencies are required to explain why goals are not
           Performance met and are required to present actions to meet the goals in the future.
             Report    Agencies issued their first annual performance reports on FY 1999
                       performance and are required thereafter to issue annually a report on
                       each annual performance plan.


The Department of Commerce issued its first strategic plan identifying its mission and
goals in fiscal year (FY) 1997. A second strategic plan covered FY 2000 - FY 2005.
The most recent strategic plan for FY 2004 - FY 2009 articulates the Department of
Commerce's mission to create conditions for economic growth and opportunity by
promoting innovation, entrepreneurship, technological competitiveness, and stewardship.

The Department, comprised of the bureaus listed in Figure 2, maintains three strategic
goals:

       Goal 1: Provide the information and tools to maximize U.S. competitiveness and
       enable economic growth for American industries, workers, and consumers;
 U.S. Department of Commerce                                  Final Report No. FSD-17444-0001
 Ofice of Inspector General                                                       March 2006

        Goal 2: Foster science and technological leadership by protecting intellectual
        property, enhancing technical standards, and advancing measurement science; and

        Goal 3: Observe, protect, and manage the Earth's resources to promote
        environmental stewardship.

              Figure 2

                    DEPARTMENT
                            OF COMMERCE
                                     BUREAUS
    EDA          Economic Development Administration
    ESA          Economics and Statistics Administration
    BEA          Bureau of Economic Analysis
  CENSUS         U.S. Census Bureau
    ITA          International Trade Administration
    BIS          Bureau of Industry and Security
   MBDA          Minority Business Development Agency
    PTO          U.S. Patent and Trademark Office
     TA          Technology Administration
   NIST          National Institute of Standards and Technology
   NTIA          National Telecommunications and Information Administration
   NOAA          National Oceanic and Atmospheric Administration
Source: Department's FY 2004 PAR



FY 1999 was the first year the Department produced an Annual Performance Plan (APP)
and an Annual Program Performance Report (APPR). Currently, the APP is combined
with the Department's budget submission, while the APPR is combined with the financial
statements in its performance and accountability reports (PARS). The Reports
Consolidation Act of 2000, passed in part to improve the quality of agency financial and
performance data, encourages this consolidation of performance reports with other
reports such as the audited financial statements. The Act also requires a transmittal letter
from the agency head containing an assessment of the completeness and reliability of
reported performance data and a description of any material inadequacies in the
completeness and reliability of data.

Congress, the Office of Management and Budget (OMB), and other decision makers can
use the information describing actual performance against established targets in the PAR
to evaluate the federal government's investment in these programs. Agency officials can
use it to assess and improve program outcomes. However, performance results enable
such assessment and improvement only to the extent that reported data is reliable. When
Congress passed GPRA, it emphasized that the usefulness of agencies' performance data
 U.S. Department of Commerce                                             Final Report No. FSD-17444-0001
 OfJice of Inspector General                                                                 March 2006

 depends, to a large degree, on the reliability and validity of performance data. GPRA
 required agencies to validate and verify the performance data they report.3

The Office of Inspector General began monitoring Commerce's implementation of
GPRA in 1997. Since then, OIG has provided implementation advice and assistance,
made presentations to departmental officials on ensuring the reliability of performance-
related information, provided informal comments to the Department on various GPRA-
related documents, and performed audits of performance measures at seven bureaus
within the Department.

Inconsistencies and inaccuracies in the Department's reporting of reliable performance
data led the OIG to identify the Department's efforts to implement GPRA as a top
management challenge in our March 31, 1999, Semiannual Report to Congress. GPRA
has remained a management challenge since that time because audits of performance
measurement and reporting at Commerce bureaus have repeatedly identified either
(1) performance measures that are inappropriate, inaccurate, and unclear; (2) insufficient
explanations of performance information; or (3) inadequate management controls over
performance information.                    Figure 3
The various audit reports on
                                         AUDIT REPORTS ISSUED ON GPRA
performance measurement and
reporting we have issued are                Bureau of Export Administration, Final Audit Report No.
detailed in Figure 3. The eight             FSD-12847, September 2000
audit reports issued as of           1      National Telecommunications and Information
September 30,2004 had                       Administration,  Final Audit Report No. FSD-12856,
examined performance                        September  2000
                                            U.S. Patent and Trademark Office, Final Audit Report No.
measurement at bureaus                      FSD- 14429, March 2002
representing more than 80% the              National Institute of Standards and Technology, Final
Department's FY 2004                        Audit Report No. FSD-14430, March 2002
Statement of Net Cost.                      National Oceanic and Atmospheric Administration, Final
                                                      Audit Report No. FSD-14998, February 2003
We have not limited our reviews                       National Oceanic and Atmospheric Administration, Final
                                                      Audit Report No. FSD-15643, September 2003
of performance measurement                            U.S. Census Bureau, Final Audit Report No. FSD-15990,
data with the Department to                           March 2004
audits. The OIG's Office of                           National Oceanic and Atmospheric Administration Audit
Inspections and Program                               Report No. FSD-15989, September 2004
Evaluations (OIPE) also                               Minority Business Development Agency, Final Audit
identified problems with                              Report No. 17252, September 2005
performance measurement data
during five inspections at the International Trade Administration between March 2003
and September 2004.



    The General Accounting Office has defined verification as the "assessment of data completeness,
accuracy, and consistency, and related quality control practices." It defines validation as the "assessment
of whether the data is appropriate for the performance measure. U.S. General Accounting Office, July 30,
1999. Performance Plans: Selected Approaches for Verijkation and Validation of Agency Performance
Information, GAOIGGD-99-139. Washington D.C.: General Accounting Office.
U.S. Department of Commerce                                    Final Report No. FSD-I 7444-0001
Ofice of Inspector General                                                          March 2006

                                         Figure 4

                       OIG INSPECTION REPORTS THAT INCLUDED
                       REVIEW OF ITA PERFORMANCE DATA

                          Commercial Service India: Challenges Remain for
                          Management of a Large and Economically Diverse Post
                          Final Inspection Report IPE-16808, September 2004
                          USEACs Are Meeting Client Needs, but Better
                          Management Oversight Is needed
                          Final Inspection Report IPE-16728, September 2004
                          Pacific Northwest USEAC Network Generally Operates
                          Well, but Export Success Reports Need More
                          Management Scrutiny
                          Final Inspection Report IPE- 16507, March 2004
                          Generally Sound Operations at Commercial Service
                          Greece Are Compromised by Key Weaknesses
                          Final Inspection Report IPE-15804, September 2003
                          The Commercial Service Needs to Improve Management
                          of its Operations in Turkey
                          Final Inspection Report IPE-15370, March 2003



This report summarizes our prior audit coverage and highlights Commerce's the
measurement and reporting issues identified by OIG, describes what corrective actions
have been taken, and identifies additional opportunities to strengthen the collection and
reporting of the Department's performance results.
    U.S. Department of Commerce                                     Final Report No. FSD-17444-0001
    Ofice of Inspector General                                                          March 2006


                       OBJECTIVES,SCOPE,AND METHODOLOGY
    This is a self-initiated audit to summarize OIG reviews of Commerce performance
    information and assess the status of the Department's efforts to report useful and reliable
    performance results.

The objectives of our audit were to (I) assess bureau and departmental efforts to address
identified deficiencies and strengthen performance measurement and reporting and (2)
identify whether additional actions are needed to ensure that reported performance results
are reliable and meaningful. The scope of our audit was limited to the performance
measures that had been reviewed during the eight audits we conducted at six bureaus and
the corrective actions taken by the International Trade Administration to correct its
performance measure reports in response to OIG's Office of Inspections and Program
Evaluations (OIPE) work.

To answer our audit objectives, we interviewed departmental and bureau officials
responsible for generating, maintaining, and reporting performance data and following up
on OIG recommendations. We also collected and reviewed documentation associated
with the implementation of OIG recommendations; reviewed pertinent federal guidance
and legislation4;and evaluated the presentations for previously reviewed measures in the
FY 2004 PAR, and the FY 2006 APP. In addition, we reviewed earlier APPs, APPRs,
and PARSto assess whether our recommendations had been implemented.

We questioned Department managers about the implementation of recommendations to
address previously identified deficiencies and strengthen management controls and
performed a cursory review of documentation detailing the corrective actions taken by
the bureaus. We did not test the reported performance results reported in either the FY
2004 PAR or FY 2005 PAR. We also did not test the reliability of computer-generated
data for the performance measures, because that data was not necessary for our audit.
We did not identify any instances of the failure to comply with applicable laws and
regulations.

We conducted our fieldwork from April 2005 to January 2006 at Commerce headquarters
in Washington, D.C. We performed this audit in accordance with Government Auditing
Standards issued by the Comptroller General of the United States, under authority of the
Inspector General Act of 1978, as amended, and Department Organization Order 10-13,
dated May 22,1980, as amended.




4
 GPRA; the Chief Financial Officers Act; Reports Consolidation Act of 2000, OMB Circular A-123,
Management Accountability and Control;OMB Circular A-1 1 Part 6, Preparation and Submission of
Strategic Plans, Annual Performance Plans, and Annual Program Performance Reports; and GAO
Standards for Internal Control in the Federal Government.
    U.S. Department of Commerce                                    Final Report No. FSD-17444-0001
    Ofice of Inspector General                                                          March 2006

                          FINDINGS AND RECOMMENDATIONS

    Our audits of performance measures at many of Commerce's bureaus and review of
    performance data at several ITA offices identified a number of deficiencies and made a
    number of recommendations to improve the accuracy and reliability of performance
    information reported by the Department. Table 1 summarizes the findings from our eight
    audit reports issued between September 2000 and September 2004, five inspection
    reports issued between March 2003 and September 2004, and our most recent audit report
    on MBDA performance measures that was issued in September 2005.

    Table 1:
    Common Issues from OIG Reviews




For purposes of this report, we have grouped the problems we identified into two main
categories: ones that undermine the utility of reported data (i.e., unclear measures and
inadequate disclosures) and ones that undercut its integrity (i.e., deficiencies in
management controls to ensure the reliability of performance results). Usefulness of
reported data is compromised when (I) terms used in performance measures are not clear
to the people collecting the data andlor the people using it, (2) the link between the
activity being measured and the agency's actions cannot be clearly established, or

5
  Five OIPE Inspections conducted between March 2003 and September 2004 identified insufficient
supporting evidence for export success measures.
  Minority Business Administration: Value of MBDA Performance Measures is Undermined by
Inappropriate Combining of Program Results and Unreliable Performance Data from MBOC Program.
Final Audit Report No. FSD-17252-5-0001ISeptember  2005.
 U.S. Department of Commerce                                 Final Report No. FSD-17444-0001
 Ofice of Inspector General                                                      March 2006

(3) discussions of reported results are insufficient or fail to disclose known data
limitations. The integrity of performance data is undermined when management controls
designed to protect integrity are ignored, misunderstood, or otherwise compromised.

We are encouraged by improvements in the utility of reported performance information,
and progress has been made in strengthening the integrity of performance data for the six
bureaus audited earlier and ITA. Nevertheless, we believe the Department and its
bureaus should take steps to further enhance the utility and integrity of performance
information by building on the positive actions taken in response to prior reports.

    I. Data Utility of Reported Performance Information Has Improved, but
       Opportunities Remain for Further Improvement

In our previous audits of performance data reported by Commerce bureaus, we identified
many deficiencies of data utility. In order for performance information to be useful, key
terms associated with measures must be understood by those collecting the data and those
using it. When appropriate, the data should be supplemented by clear explanations of
results and disclosures of data limitations.

A. Positive steps taken towards enhancing the utility of reported performance data

This audit found the Department has eliminated several measures that did not
demonstrate a clear link between the activity being measured and the agency's actions or
which did not clearly delineate what was being measured. In other cases, the titles of
performance measures have been reworded or augmented with enhanced explanations.
Strengthened explanations of results, enhanced discussions of data limitations, and
improved descriptions of verification procedures are other steps bureaus have taken to
improve the utility of reported data. In addition, the Department of Commerce Office of
Budget has been holding quarterly performance reviews between bureau heads and the
Deputy Secretary since January 2005. These reviews demonstrate an increased emphasis
on the importance of useful performance data.

Problematic measures have been discontinued and reworded

The Department has eliminated or reworded measures that either (I) did not demonstrate
a clear link between the activity being measured and the agency's actions or (2) clearly
demonstrate what was being measured. As noted in Table 1, (See Page 6), our earlier
audits had identified 26 measures that were unclear. (See Appendix A)

Of the 26 performance measures identified as unclear during our earlier audits of six
bureaus,

       9 or 35% of these performance measures have been discontinued,

       10 or 38 % have been revised or reworded, and
 U.S. Department of Commerce                                       Final Report No. FSD-I 7444-0001
 O@ce of Inspector General                                                             March 2006

         7 or 27% of the sample measures were reported (active) in the Department's FY
         2005Pe~ormanceand Accountability Report.

 The following are some examples of problematic measures that were discontinued or
 reworded. This is not a complete list of discontinued,reworded performance measures,
 but merely examples of the types of problems that we previously identified that this
 report references:

                  NTIA subsequently discontinued the unsupported reporting on the
                 performance measures on Internet accessibility and use and increased
                 telephone subscription rates. Our audit of NTIA's FY 1999 performance
                 results found that these two measures had been included in the
                 Department's FY 1999APPR even though it was extremely difficult, if not
                 impossible, to determine the impact of NTIA programs and activities in
                 either of the areas being measured.'

                 NOAA subsequently discontinued two performance measures relating to
                reducing the number of threatened and endangered species at risk of
                extinction by FY 2007. Our September 2004 audit report noted that those
                performance measures included in the Department's FY 2002 PAR
                incorrectly implied that NOAA was touting its success at improving
                individual species to the point where they could move out of the
                threatened and endangered categories.' We found, however, that NOAA
                was actually reporting on any success at stabilizing (stopping the decline)
                or improving populations of particular species. The measures "Reducing
                by 10 (from a FY 2000 baseline of 27) the number of threatened species at
                risk of extinction" and "Reducing by 11 (from a FY 2000 baseline of 29)
                by FY 2007, the number of endangered species at risk of extinction" are to
                be replaced by one- the "number of protected species designated as
                threatened, endangered, or depleted with stable or increasing population
                levels7'-which more accurately conveys what the agency is measuring.

                 Census subsequently discontinued the use of the performance measure
                "Percentage of household surveys attaining specified reliability
                measurements." Our March 2004 audit report identified that this Census
                measure reported in the Department's FY 2002 PAR had included two
                non-household demographic surveys (Teacher Follow-up Survey and
                School and Staffing            Lumping these two together under a
                measure that referred to only "household" surveys skewed the data and
                misinformed the reader.

'National Telecommunicationsand Information Administration: Reporting of Performance Measures
Needs Improvement. Final Audit Report No. FSD-12856lSeptember 2000.
 National Oceanic and Atmospheric Administration: Improvements Needed in the Reporting for NOAA
goals-Build Sustainable Fisheries, Recover Protected Species, and Predict and Assess Decadal to
Centennial Climate Change. Final Audit Report No. FSD-15989-4-0001ISeptember      2004.
 U.S. Census Bureau: Improvements Needed in the Reporting of Performance Measures by the U.S.
Census Bureau. Final Audit Report No. FSD-15990-4-0001tMarch 2004.
 U.S. Department of Commerce                                         Final Report No. FSD-17444-0001
 Office of Inspector General                                                             March 2006

 Problematic Explanations of Results Have Been ClariJied and Strengthened

 Inaccurate and insufficient explanations undermine the usefulness of the information
 meant to be conveyed by performance measures. In the following example, the
 explanation of the results was subsequently clarified and strengthened.

 Measure:           Increased sales attributed to MEP (Manufacturing Extension
                    Partnership Centers) assistance (NIST).

Our March 2002 audit report identified that the NIST goal "improve the technological
capability, productivity, and competition of small firms" had included increased sales of
other than small firms in its reported results for this measure. Subsequently, NIST
provided the following explanation of results for its measure "increased sales attributed to
MEP assistance" in the Department's F Y 2002 PAR: "reported data reflect primarily the
impact of MEP services on small manufacturing establishments ... based on recently
compiled survey data (as of mid-2001. Approximately 95% of clients served by MEP are
small establishments with fewer than 500 employees; these clients account for
approximately 93% of the attributed sales impacts." l o By providing this explanation,
NIST clearly disclosed that not all sales increases were attributable to small firms.

Problematic Discussion of Data Limitations Have Been Enhanced

An insufficient discussion of data limitations precludes a clear presentation of
performance results. Including data limitations gives performance information context
that facilitates informed decision-making.

Measures:          Lead time (minutes), accuracy (%), and false alarm rate (FAR%) of
                   severe weather warnings for tornadoes (NOAA), and Lead time
                   (minutes) and accuracy (%) for severe weather warnings for flash
                   floods (NOAA).

Our FY 2003 audit identified that lead time for the measures were averaged and
consequently did not convey the percentages of times that the NWS issued tornado and
flash flood warnings with no lead time or no warnings at all. Subsequently, NOAA
provided additional discussion of data limitations for certain performance measures. For
example, on the NOAA performance measure related to severe weather warnings of
tornadoes, NOAA noted in the Department's FY 2006 APP that (1) the lead times for all
tornado occurrences within the continental U.S. are averaged to get this statistic for a
given fiscal year; (2) the average includes all warned events with zero lead times and all
unwarned events; and (3) that for FY 2003, the percentage of events with a lead time
greater than zero was 73 percent. NOAA included a similar discussion for the measure
dealing with flash flood warnings. Discussing the limitations of performance data
provides individuals who use the data with proper context for assessing performance
results and allows informed decisions.


'O   U.S. Department of Commerce FY 2002 Performance and Accountability Report.


                                                   9
 U.S. Department of Commerce                                      Final Report No. FSD-17444-0001
 Ofice of Inspector General                                                           March 2006

 Problematic Descriptions of Verification Procedures Have Been Improved

 The discussion of verification procedures should provide users of performance
 information with an understanding of how much credibility can be placed in the accuracy
 of reported performance results.

 Measures:       Average pendency to issue/abandonment (patent) (USPTO), and
                 Average time to disposal or registration (trademark) (USPTO).

Our March 2002 audit found USPTO had incorrectly identified the Department's annual
financial statement audit as the "verification method" for providing assurances over
management controls over reported performance measures contained in the Department's
combined FY 2000 APPRI FY 2002 APP. USPTO managers had been unaware that the
financial statement audit did not provide assurance of the reliability of performance
results. The Department's FY 2000 APPR and FY 2002 APP also noted that for each
performance measure reported, USPTO performed a final test of reasonableness, however
there was no discussion of the nature of the reasonableness test or who performed it. We
recommended the description of the verification procedures for patent and trademark
measures be revised to accurately and completely describe the procedures performed."
USPTO subsequently stopped making reference to the financial statement audit as its
verification for its performance measures. USPTO also noted that verification procedures
used manual reports and analysis and internal program edits to patent and trademark
systems. Clear explanations of verification procedures are important to indicate how
reliable reported performance results are.

Departmental Reviews of Performance Results Emphasize the Importance of Reliable
and Useful Performance Data

In January 2005, the Department of Commerce's Office of Budget instituted quarterly
performance reviews between bureau heads and the Deputy Secretary to discuss bureau
performance targets and accomplishments. Also, in spring 2005, the Department's Office
of Budget performed surveys of performance measures (one measure for each bureau)
with the stated objective of assessing the data validation and verification process. A
second round of reviews was done at two other bureaus. Both efforts demonstrate
management's commitment to strengthening performance information and putting it to
use. Increased management use of performance data increases the likelihood that
accurate, timely data is collected and reported.

B. Additional opportunities to improve the utility of performance data exist

As noted, the steps taken by the bureaus and Department in response to our earlier
observations and recommendations are encouraging. However, the increasing emphasis
and importance of accurate performance data requires continued senior management
attention to this area. To further improve the utility of performance data managers should

II
  United States Patent and Trademark Ofice: Minor Improvements Needed in Reporting Pe$ormance
Results. Final Audit Report No. FSD-14429lMarch 2002.
 U.S. Department of Commerce                                 Final Report No. FSD-17444-0001
 Ofice of Inspector General                                                      March 2006

ensure that key terms used in new measures included in the PAR are clear to both
personnel within Commerce and the Department's stakeholders. Also, the letter from the
Secretary transmitting the PAR to the OMB and Congress should clearly articulate the
completeness and reliability of the reported performance data.

Ensure a Common Understanding of Key Terms in Performance Measures

As new performance measures are introduced, it is critical that documents prepared by
the Department such as the PAR and APP clearly articulate what the performance
indicators are measuring. Our earlier audits identified many instances where definitions
of key terms used in performance measures did not exist. We continue to see this as an
area of concern requiring management attention. Our recent audit of performance
measurement and reporting at the Minority Business Development Agency, for example,
identified unclear definitions of key performance terminology as a critical concern.
Given the problems identified in previous audits, it is imperative that key performance
measures be understood by both internal and outside stakeholders.

Improve the Assessment of Data Credibility in the PAR

The Reports Consolidation Act of 2000 requires a transmittal letter containing an
assessment by the agency head of the completeness and reliability of the performance and
financial data used in the report. Commerce's transmittal letters for the FY 2002 through
FY 2004 PARS contained only a general statement about data completeness and
reliability. For example:

       In the FY 2004 Per$ormance and Accountability Report, the transmittal letter from
       the Secretary of Commerce stated that "I attest under the Reports Consolidation
       Act of 2000, we have made every effort to ensure that the financial and
       performance data presented in this report are accurate and complete, and are used
       on a regular basis to manage our programs."
       In the FY 2002 and FY 2003 Per$ormance and Accountability Reports, the
       Secretary's transmittal letter noted that the Department, "in collaboration with our
       bureaus and the Inspector General, is working to continuously strengthen its
       implementation of GPRA and assure that our performance is appropriate,
       complete, and reliable."

Prior to issuance of the FY 2005 PAR, we recommended to the Department's Office of
Budget that the letter from the Secretary transmitting the FY 2005 PAR should contain a
more thorough discussion of the completeness and reliability of performance data within
the report. This recommendation was implemented and the FY 2005 PAR transmittal
included a clearer discussion of the reliability of performance data reported. Future
editions of the PAR also should contain expanded statements on the reliability of reported
performance data. We believe an explanation of the steps taken by the bureaus and the
Department to ensure increased involvement of senior departmental officials and reliable
performance data would be more meaningful in future PAR transmittals.
 U.S. Department of Commerce                                       Final Report No. FSD-17444-0001
 Ofice of Inspector General                                                            March 2006

         11. Progress also has been made in strengthening the integrity of
              performance data, but opportunities for more improvement remain

The bureaus have taken a number of positive steps to address our recommendations from
earlier reports, but opportunities for improving the integrity of performance data remain.
Our previous reviews of bureau performance data identified instances where poor
management controls undermined the reliability of the data. In those earlier audits of
performance measurement and reporting, we focused on public performance information
in annual program performance reports, annual performance plans, and performance and
accountability reports. However, as performance data is integrated with the budget
process and into oversight of program activities, steps should be taken to ensure (I) the
effectiveness of controls over the collection of performance data and (2) the integrity of
data underlying reported performance results.

A. Positive steps taken toward improving data integrity

Commerce bureaus have strengthened a number of management controls to improve the
integnty of reported performance data. For example, we found instances in which
bureaus clarified what to include or exclude from performance results. We also found
that bureaus have strengthened several verification procedures and requirements relating
to supporting documentation.

Ensuring Common Understanding in What Performance Measures Represent

To ensure that reported performance results are accurate, complete, and consistently
reported, personnel responsible for collecting and reporting must understand what the
measure represents and what data should or should not be collected and included in
reported performance results.

Measure:        Number of New Monitoring or Forecast Products that Become
                Operational Per Year (cumulative). (NOAA)

NOAA's measure of the number of new monitoring or forecast products that become
operational per year exemplifies the need for a consistent definition of a performance
measure. We reported in our FY 2003 audit that because the definition used for "new
product," the actual number of new products in FY 2001 may have been significantly
understated in the APPRIAPP.

Our FY 2003 audit found that there was no single, consistent definition for a new product
at the Climate Prediction Center (CPC). Depending on the definition used, 50 new
products could have been identified as becoming operational in FY 2001, not four, as was
reported in the FY 2001 APPR and FY 2003 APP. The National Weather Service has
indicated it will improve the definition of "new product" and that this will eliminate the
conf~sion.'~

l2 National Oceanic and Atmospheric Administration: Improvements Needed in the Reporting of
Pet$ormance Measures Related to Advancing Short-Term Warnings and Implementing Seasonal to
Interannual Climate Forecasts. Final Audit Report No.FSD-15643-3-0001/September   2003
 U.S. Department of Commerce                                   Final Report No. FSD-17444-0001
 OBce of Inspector General                                                         March 2006


 Verification Procedures Have Been Strengthened

Verification of reported results, including the reconciliation of reported data with actual
results, is important to ensure that performance data is reliable. Both the Department and
bureaus have taken steps to enhance the reliability of performance data. As noted earlier,
in spring 2005, the Department's Office of Budget initiated a test process to verify and
validate performance data for a selected group of measures. The Office of Budget
performed surveys of performance measures at nine bureaus (one measure for each
bureau). The review revealed several bureaus had adequate data verification and
validation processes, but some bureaus' processes still needed improvement.

In several of our earlier audits, we found that verification procedures were either not in
place or were unclear. Since these reports were issued, we have found that bureaus we
audited have subsequently taken significant steps to ensure that reported performance
results were more reliable. For example:

Measure:        Increased sales attributable to MEP assistance (NIST).

Since our March 2002 audit report was issued, NIST has improved its verification of
performance results claimed for the measure "increased sales attributed to MEP
assistance." In that report, we found that the actual dollar amounts claimed could not all
be verified and some that were verified were incorrect. In one instance a $2.5 million
claim of increased sales was misreported as $25 million. In the summer of 2002, NIST
headquarters reminded MEP Center Directors that large impacts reported by clients must
be scrutinized and validated. In addition, the NIST document NIST MEP Management
Information Reporting Procedures now clearly identifies criteria based on dollar values
of claims and jobs created for verifying the reliability of survey responses from recipients
of services. The changed procedures seem to be working. NIST now has examples
where identification and correction of inaccurate results reduced sales claims. In one
significant instance, new sales were reduced from $150 million to $15 million while in
another instance retained sales were adjusted from $250 million to $2.5 million.

Measure:       Export Success (ITA).

In its September 2003 report entitled Generally Sound Operation at Commercial Sewice
Greece are Comprised by Key Weaknesses, ITA Final Inspection Report No. PE-15804,
OIG's Office of Inspections and Program Evaluations (OPE) found that ITA lacked clear
guidelines to substantiate claimed results relating to its export success measures and
recommended that existing guidelines be revised. In April 2005, ITA revised
Commercial Service's (CS') performance measurement guidelines pertaining to its export
success measures. The new guidance better defines the measures used to assess export
successes, establishes criteria for identifying export successes attributed to ITA, and
identifies documentation and reporting guidelines. The guidelines are designed to better
ensure the accuracy and reliability of performance results and prevent erroneous
reporting of unsupported export successes.
 U.S. Department of Commerce                                      Final Report No. FSD-17444-0001
 Ofice of Inspector General                                                            March 2006

 Measure:        Number of end use visits (BIS).

In our September 2000 audit, we were unable to determine the correct number of end-use
visits because of items that had been inappropriately included in the total reported by the
Bureau of Industry and Security (BIS). BIS has since developed policies and procedures
on data validation and verification of key performance measures. A new checklist
identifies steps required to: (1) verify dates of all data to ensure current fiscal year, (2)
review and validate supporting documentation, (3) review data processing methodology
to ensure accuracy of computations, (4) review results to ensure accuracy by office and
data set, note data discrepancies and make corrections, and (5) coordinate any corrective
action required with responsible program office. BIS also advises that it regularly
reviews performance results submitted by line offices prior to reporting them.

Other bureaus also have made progress in this area. For example, USPTO has developed
policy and verification procedures including an activity schedule for independently
verifying and validating performance data on patent and trademarks measures and
technical assistance activities.

Requirements for Supporting Documentation have been Strengthened

The GAO Standards for Internal Control in the Federal Government states that all
transactions and other significant events need to be clearly documented and the
documentation should be readily available for examination. Our follow-up review found
that bureaus have taken steps to improve documentation supporting reported performance
results.

Measures:       Lead time (minutes), accuracy (%), and false alarm rate (FAR%)of
                severe weather warning for tornadoes (NOAA), and Lead time
                (minutes) and accuracy (%) for severe weather warnings for flash
                floods. (NOAA)

During our FY 2003 audit, we had found some NWS offices that were uncertain about
how long they should maintain records supporting these measures, largely because of
conflicting earlier guidance.'3 NWS has subsequently updated its National Weather
Instruction 10-1605,dated August 26,2004, and now requires retention of supporting
data for 2 years. Instruction 10-1605 also states that a sufficient amount of time should
be allowed to ensure that documentation and verification of significant weather
phenomena is as accurate and complete as possible.




I3~ationalOceanic and Atmospheric Administration: Improvements Needed in the Reporting of    '

Performance Measures Related to Advancing Short-Term Warnings and Implementing Seasonal to
Interannual Climate Forecasts. Final Audit Report No. FSD-15643-3-00011September2003
U.S. Department of Commerce                                   Final Repol? No. FSD-17444-0001
Ofice of Inspector General                                                        March 2006

B.      Opportunities to improve the integrity of performance data remain

Management controls over the collection of performance data should continue to be
assessed and, as appropriate, strengthened, and the various systems used to capture
performance data should be evaluated. In addition, the Office of Budget should build
upon its reviews of performance measures.

Management Controls Over the Collection of Performance Data Should be Assessed

Our previous audits focused on the reliability of performance results reported in the PAR,
and we concentrated on assessing the controls in place to ensure the reporting of reliable
performance data in that document. We did not perform comprehensive assessments of
the management controls in place over the collection of data at the unit or field office
level. However, it is imperative that procedures are in place to ensure that personnel
responsible for the collection of the data are sufficiently trained and that only appropriate
data are collected. Such controls must also be regularly reviewed to determine if they are
operating as intended.

Management controls over the various systems used to collect performance data should
be closely monitored. Our previous audits have not included reviews of the information
technology systems used in the collection of performance data, and we cannot judge the
effectiveness of these systems at producing reliable performance data. The Department
and its bureaus should assess the systems used to capture and report performance data.

RECOMMENDATIONS

We recommend that the CFO require:

(1) The Department and its bureaus to ensure key terms used in measures are easily
    understood. The introduction of new measures should be accompanied by
    informative explanations in the PARS and APPs issued by the Department.

(2) Management controls over data collection and systems used in the collection and
    reporting of performance data are in place to ensure the integrity of underlying
    performance data.

(3) Quarterly performance reviews be used to discuss the effectiveness of controls in
    place to ensure the reliability of performance information, including the results of
    Office of Budget reviews of validation and verification.
U.S. Department of Commerce                               Final Report No. FSD-17444-0001
Ofice of lnspector General                                                     March 2006

Department Response

In responding to the draft report, the Department strongly concurred with all three
recommendations to better ensure the clarity of terminology used within performance
measures, to further ensure the integrity of performance data, and to incorporate
discussion on internal controls for performance data into the quarterly performance
reviews held by the Deputy Secretary and bureau heads.

OIG Comments

The corrective actions taken and planned are responsive to our recommendations. The
Department should be commended for the prompt corrective actions that are being taken
to enhance performance data and strengthen internal controls.
                                                                                APPENDIX A


                            BUREAU OF EXPORT ADMINISTRATION

                        Reporting of Performance Measures Needs Improvement
                           Final Audit Report FSD-12847, September 2000



                                                OIG ISSUES

                                      Utility                  Integrity
                           Measures do       Inadequate       Management           Bureaus
                            not clearly     explanations     controls do not      Response to
                          articulate what        and       adequately ensure         OIG
     MEASURES
                              is being      disclosures of that reported data      Concerns
                            measured           results         is accurate
Number of high-risk
transactions deterred                             X                 X             Discontinued
Number of
enforcement outreach
visits
Number of
nonproliferation and
export international                                               X              Discontinued
cooperative exchanges
Number of
investigations                                                     X              Discontinued
completed
Number of end-use
visits                                                             X              Discontinued
                                                                                APPENDIX A

                                        U. S. CENSUS BUREAU

                   Improvements Needed in the Reporting of Performance Measures
                                    by the U.S. Census Bureau
                        Final Audit Report FSD-15990-4-0001, March 2004



                                                        OIG ISSUES
                                              Utility                    Integrity
                                 Measures do not Inadequate            Management           Bureaus
                                 clearly articulate explanations      controls do not      Response to
                                   what is being         and        adequately ensure         OIG
         MEASURES                    measured       disclosures of that reported data is    Concerns
                                                       results           accurate
 Percentage of household
 surveys attaining specified            X                 X                                Discontinued
 reliability measurements
Household response rates for
CPS, NCVS, AHS, and SIPP.
                                                                                           Unchanged
Response rate for NHIS.                                   X                 X
Household Response Rate for
SIPP
Release data products from
Survey of Income and Program
Participation and Survey of             X                 X                                Unchanged
Program Dynamics
Release Decennial Census,                                                                   Reworded
Census of Governments, and              x                 x                 x
Economic Census products
Implement Master Address
File /Topologically Integrated
Geographic Encoding and
                                        X                 X                                 Reworded
Referencing Modernization
Implement American
Community Survey (ACS)                  X                 X                 X               Reworded
                                                                        APPENDIX A


          NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY

                 Reporting of Performance Measures Needs Improvement
                      Final Audit Report, FSD-14430, March 2002



                                        OIG ISSUES
                                  Utility               Integrity
                                                      Management
                        Measures do      Inadequate
                                                     controls do not       Bureaus
                         not clearly    explanations
                                                       adequately         Response to
                         articulate          and
    MEASURES                                           ensure that           OIG
                        what is being    disclosures
                                                     reported data is      Concerns
                         measured         of results
                                                        accurate
Increased Sales
Attributable to MEP          X               X              X              Reworded
Assistance
Number of technical
publications                 X                              X              Reworded
produced
Cumulative number
of technologies under                       X                             Unchanged
commercialization
Cumulative number
of patents filed                            X               X             Unchanged
                                                                       APPENDIX A

         NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

Improvements Needed in the Reporting for NOAA goals-Build Sustainable Fisheries,
          Recover Protected Species, and Predict and Assess Decadal to
                           Centennial Climate Change
             Final Audit Report FSD-15989-4-0001, September 2004


                                       OIG ISSUES
                                 Utility               Integrity
                                                     Management
                        Measures do Inadequate
                                                    controls do not     Bureaus
                         not clearly explanations
                                                      adequately       Response to
                         articulate       and
                                                      ensure that         OIG
                        what is being disclosures
                                                    reported data is    Concerns
                         measured      of results
                                                       accurate
Reduce the number
of overfished major
stocks of fish from
                             X             X               X           Discontinued
56 to 45 by FY 2007
Reduce the number
of major stocks with                       X              X
an "unknown" stock                                                     Discontinued
status to no more
than 98 by FY 2007
Increase the
percentage of plans
to rebuild overfished
                            X              X              X             Reworded
major fish stocks
                                                                            APPENDIX A

         NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

       Improvements Needed in the Reporting of Performance Measures Related to
              Promoting Safe Navigation and Sustaining Healthy Coasts
               Final Audit Report FSD-14998-3-0001, February 2003


                                             OIG ISSUES
                                   Utility               Integrity
                          Measures do    Inadequate       Management
                           not clearly  explanations     controls do not     Bureaus
                           articulate        and           adequately       Response to
     MEASURES             what is being disclosures of     ensure that         OIG
                           measured        results       reported data is    Concerns
                                                            accurate
Number of acres of
coastal habitat                                X                X            Reworded
benefited

Percentage of U.S.
shoreline and inland
areas that have
improved ability to                            X                X            Reworded
reduce coastal hazard
impacts

Reduce introductions
and effects of invasive
species in a total of
six regions within the         X               X               X            Discontinued
U.S.
                                                                                  APPENDIX A

              NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

     Improvements Needed in the Reporting for NOAA goals-Build Sustainable Fisheries,
               Recover Protected Species, and Predict and Assess Decadal to
                                Centennial Climate Change
                  Final Audit Report FSD-15989-4-0001, September 2004


                                               OIG ISSUES
                                    Utility                    Integrity
                                                                Management
                           Measures do         Inadequate
                                                               controls do not       Bureaus
                            not clearly       explanations
                                                                 adequately         Response to
                            articulate             and
                                                                 ensure that           OIG
                           what is being      disclosures of
      MEASURES                                                 reported data is      Concerns
                            measured             results
                                                                  accurate
Reduce by 10 (from a
FY 2000 baseline of 27)                                                             Discontinued
by FY 2007, the number          X                   X                X
of threatened species at
risk
Increase the number of
commercial fisheries
that have insignificant
marine mammal                                      X                 X              Unchanged
mortality

Reduce by 11 (from a
FY 2000 baseline of 29)         X                  X                 X
by FY 2007, the number                                                              Discontinued
of endangered species at
risk of extinction
                                                                            APPENDIX A

           NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

         Improvements Needed in the Reporting of Performance Measures Related to
              Advancing Short-Term Warnings and Implementing Seasonal to
                             Interannual Climate Forecasts
                 Final Audit Report FSD-15643-3-0001, September 2003

                                         OIG ISSUES
                                   Utility                  Integrity
                                                          Management
                        Measures do      Inadequate
                         not clearly                     controls do not
                                        explanations                           Bureaus
     MEASURES                                              adequately
                         articulate          and                              Response to
                        what is being                      ensure that
                                        disclosures of                           OIG
                                                         reported data is
                         measured          results                             Concerns
                                                            accurate
Lead time (minutes),
accuracy (%), and
false alarm rate
(FAR%) for severe            X               X                  X              Unchanged
weather warnings for
tornadoes
Lead time (minutes)
and accuracy (%) for
severe weather               X               X                 X               Unchanged
warnings for flash
floods
Accuracy (%) of
three-day forecast of        X               X                                 Reworded
precipitation
                                                                       APPENDIX A

         NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

      Improvements Needed in the Reporting of Performance Measures Related to
           Advancing Short-Term Warnings and Implementing Seasonal to
                          Interannual Climate Forecasts
              Final Audit Report FSD-15643-3-0001, September 2003


                                            OIG Issms
                                      Utility              Integrity
                             Measures do               Management
                                          Inadequate
                             not clearly              controls do not       Bureaus
                                         explanations
                              articulate                adequately         Response to
                                              and
      MEASURES                 what is                  ensure that           OIG
                                          disclosures
                                being                 reported data is      Concerns
                                           of results
                              measured                   accurate
Determine the accuracy
of the correlation between
forecasts of the southern
oscillation index (SOI)          X              X                          Discontinued
and El NinoILa Nina
events
U.S. temperature
forecasts (Skill Score)                         X             X             Reworded
Number of new
monitoring or forecasts
products that become             X                            X            Discontinued
operational per year
(cumulative)
New climate observations
introduced                       X                            X             Unchanged
                                                                        APPENDIX A

         NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

      Improvements Needed in the Reporting of Performance Measures Related to
           Advancing Short-Term Warnings and Implementing Seasonal to
                          Interannual Climate Forecasts
              Final Audit Report FSD-15643-3-0001, September 2003


                                             OIG ISSUES
                                       Utility              Integrity
                              Measures do                 Management
                                           Inadequate
                              not clearly                controls do not     Bureaus
                                          explanations
                               articulate                  adequately       Response to
                                               and
       MEASURES                 what is                    ensure that         OIG
                                           disclosures
                                 being                   reported data is    Concerns
                                            of results
                               measured                     accurate
Determine the accuracy
 of the correlation between
forecasts of the southern
oscillation index (SOI)           X              X                          Discontinued
and El NinoJLa Nina
events
U.S. temperature
forecasts (Skill Score)                          X             X             Reworded
Number of new
monitoring or forecasts
products that become              X                            X            Discontinued
operational per year
(cumulative)
New climate observations
introduced
                                  X                            X             Unchanged
                                                                             APPENDIX A

        NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

Improvements Needed in the Reportingfor NOAA goals-Build Sustainable Fisheries,
          Recover Protected Species, and Predict and Assess Decadal to
                           Centennial Climate Change
             Final Audit Report FSD-15989-4-0001, September 2004



                                          OIG ISSUES
                               Utility                    Integrity
                                                           Management
                      Measures do         Inadequate
                                                          controls do not
                       not clearly       explanations
   MEASURES            articulate             and                            Response to
                                                            ensure that
                      what is being      disclosures of                         OIG
                                                          reported data is
                       measured             results                           Concerns
                                                             accurate
Assess and model
carbon sources and
sinks throughout           X                  X                  X            Reworded
the U.S.
Assess and model
carbon sources and         X                  X                  X            Unchanged
sinks globally
Determine actual
long-term changes                                                X
in temperature and         x                                                  Reworded
precipitation
throughout the U.S.
                                                                     APPENDIX A

         NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

      Improvements Needed in the Reporting of Performance Measures Related to
             Promoting Safe Navigation and Sustaining Healthy Coasts
              Final Audit Report FSD-14998-3-0001, February 2003




                                           OIG ISSUES

                                 Utility                 Integrity
                       Measures do      Inadequate     Management
                        not clearly    explanations   controls do not     Bureaus
    MEASURES            articulate          and     adequately ensure    Response to
                       what is being    disclosures that reported data      OIG
                        measured         of results     is accurate       Concerns
Percent reduction in
the hydrographic
survey backlog
(square nautical
miles) for critical                          X                            Reworded
navigation areas
(cumulative)

Percent of National
Spatial Reference                            X              X
System completed            X                                             Unchanged
(cumulative)
                                                                          APPENDIX A

                     NATIONAL TELECOMMUNICATIONS AND
                        INFORMA TION ADMINISTRATION

                 Reporting of Performance Measures Needs Improvement
                   Final Audit Report FSD-12856, September 2000

                                       OIG ISSUES
                                 Utility                  Integrity
                                                        Management
                     Measures do
                                       Inadequate      controls do not
                      not clearly                                             Bureaus
                                      explanations       adequately
   MEASURES           articulate                                             Response to
                                     and disclosures     ensure that
                     what is being                                              OIG
                                        of results     reported data is
                      measured
                                                          accurate
Number of
authorized
spectrum
                                           X                  X              Discontinued
assignments
Increase internet
accessibility and         X                X                  X              Discontinued
use
Maintain or
increase telephone        X                X                  X              Discontinued
subscription rates
                                                                         APPENDIX A

                    UNITED STATES PATENT AND TRADEMARK OFFICE

                   Minor Improvements Needed in Reporting Performance Results
                           Final Audit Report FSD-14429, March 2002


                                                   OIG ISSUES
                                         Utility                  Integrity
                              Measures do                       Management
                               not clearly     Inadequate
                                              explanations     controls do not     Bureaus
       MEASURES              articulate what                 adequately  ensure   Response to
                                             and disclosures
                                 is being                    that reported data      OIG
                                                of results
                               measured                          is accurate       Concerns
Number of technical
assistance activities              X                 X               X            Unchanged
completed

Percent of customers                                                 X
satisfied overall (patent)                           X                            Discontinued
Average pendency to
                                                                     X
issue/ abandonment                                   X                             Reworded
(months) (patent)
Percent of customers
                                                                     X
satisfied overall                                    X                            Discontinued
(trademark)
Average time to
examiner's first action
                                                                     X
(months)                                             x                             Reworded
(trademark)

Average time to disposal
                                                                     X
or registration                                      X                             Reworded
(trademark)
                                                                        APPENDIX B

                 INTERNATIONAL TRADE ADMINISTRATION

      Commercial Service India: Challenges Remain for Management of a Large and
                               Economically Diverse Post
                 Final Inspection Report IPE-16808, September 2004

      USEACs Are Meeting Client Needs, but Better Management Oversight Is needed
                  Final Inspection Report IPE-16728, September 2004
     Pacific Northwest USEAC Network Generally Operates Well, but Export Success
                       Reports Need More Management Scrutiny
                     Final Inspection Report IPE-16507, March 2004

     Generczlly Snzrnd Operations at Commercial Service Greece Are Compromised by
                                     Key Weaknesses
                     Final Inspection Report IPE-15804, September 2003

                 The Commercial Service Needs to Improve Management
                                of its Operations in Turkey
                     Final Inspection Report IPE-15370, March 2003


                                                OIG ISSUES
                                      Utility                    Integrity
                         Measures do                       Management
                                          Inadequate
                          not clearly                     controls do not       Bureaus
                                         explanations
                        articulate what                 adequately ensure      Response to
      MEASURES                          and disclosures
                            is being                    that reported data        OIG
                                           of results
                           measured                         is accurate         Concerns

Export Success                                    X                 X           Unchanged*




* Indicates the measure reported in the PAR remains unchanged.

                                                      -
                                                                       APPENDIX C


                  MINORITY BUSINESS DEVELOPMENT AGENCY

  Value of MBDA Performance Measures is Undermined by Inappropriate Combining
     of Program Results and Unreliable Performance Data from MBOC Program
              Final Audit Report FSD-17252-5-0001, September 2005



                                        OIG ISSUES
                                  Utility              Integrity
                       Measures do                   Management
                                        Inadequate
                        not clearly                 controls do not       Bureaus
                                       explanations
                        articulate                    adequately         Response to
                                            and
    MEASURES                                          ensure that           OIG
                       what is being    disclosures
                        measured         of results reported data is      Concerns
                                                       accurate
Total number of all
clients receiving           X               X              X             Unchanged
assistance
Dollar value of                                                          Unchanged
contracting obtained        X               X              X
Dollar value of                                                          Unchanged
financial awards            x                              x
obtained
Number of national                                                       Unchanged
and regional
strategic                                                  X
partnerships
                                                Assistant Secretary for Administration
                                                Washington, D.C. 20230



                                                         MAR 3 4 2006




MEMORANDUM FOR:               John M. Seeba


FROM:                         Otto J. Wolff
                              Chief Financial


SUBJECT:                      Draft Audit Report No. FSD-17444


On February 23,2006, you provided the subject draft audit report, "Department of
Commerce Has Made Significant Progress, but Additional Opportunities Exist to
Improve Reporting and Utility of Performance Results." This report notes that the
Inspector General intends to remove the implementation of the Government Performance
and Results Act (GPRA) from the top management challenges facing the Department in
light of progress to improve the reporting of performance data.

I am pleased by this step but want to emphasize our intent to continue proactively
working towards further progress. In this regard, we strongly agree with the report's
recommendations to better ensure the clarity of terminology used within performance
measures, to further ensure the integrity of performance data, and to incorporate
discussion on internal controls for performance data into the quarterly performance
reviews held by the Deputy Secretary and bureau heads.

We will ensue that newly adopted GPRA measures are adequately explained in our
Performance and Accountability Reports and in the bureau Annual Performance Plans,
with special attention to the use of clear terminology.

I have directed my staff to incorporate appropriate elements of our current validation and
verification process into our reviews under OMB Circular A- 123. My staff is also
developing guidance, in consultation with our bureaus, for internal controls that will
ensure the integrity of performance data in a manner that provides for suitable degrees of
consistency and flexibility within each bureau. We want to ensue that each measure has
an appropriate control in place, while recognizing that the wide variation of programs and
measures precludes directly adopting some of the relatively prescriptive control processes
used for financial data.
Mr. John M. Seeba
Page 2
Toward this goal, our respective staffs have met to discuss guidance for internal controls
for performance data. My staff further highlighted this topic at a recent meeting with
performance contacts from all of the bureaus, where we emphasized the importance of
data integrity and solicited the bureaus' input on appropriate internal control guidance.
I appreciate the participation of your staff in these sessions.

I also appreciate your recommendation to incorporate results of our validation and
verification reviews into the quarterly review meetings with the Deputy Secretary and
bureau heads. This will further highlight the importance of data integrity and facilitate
resolution of any issues that may arise in the course of our verification and validation.

Thank you for the opportunity to review the draft. My staff, in coordination with the
bureau staffs responsible for tracking and reporting performance, will continue to monitor
and improve upon the implementation of GPRA as outlined in the report.
